No. 20-979
IN THE

Supreme Court of the United States
PANKAJKUMAR S. PATEL AND JYOTSNABEN P. PATEL,
Petitioners,
v.
MERRICK B. GARLAND, ATTORNEY GENERAL,
Respondent.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

UNOPPOSED MOTION FOR LEAVE TO DISPENSE
WITH PREPARATION OF A JOINT APPENDIX

MARK C. FLEMING
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000

IRA J. KURZBAN
Counsel of Record
KURZBAN KURZBAN
TETZELI & PRATT P.A.
131 Madeira Avenue
Coral Gables, FL 33134
(305) 444-0600
ira@kktplaw.com

Pursuant to Rule 26.8 of the Rules of this Court, undersigned counsel for
Petitioners seeks leave to dispense with the requirement of a joint appendix in
this case. The appendix to the petition for a writ of certiorari reproduces all
relevant opinions and record materials on which the parties expect to rely.
Accordingly, a joint appendix, if prepared, would contain only a listing of the
‘‘relevant docket entries.’’ S. Ct. R. 26.5. Petitioners respectfully submit that
such a joint appendix would not materially assist the Court’s consideration of this
case and does not warrant the expense that would be incurred in preparing it.
The undersigned has conferred with counsel for the United States and with the
Court-appointed amicus curiae in support of the judgment below and is
authorized to state that all parties agree that a joint appendix is not necessary.
Respectfully submitted.

/s/ Ira J. Kurzban

IRA J. KURZBAN
Counsel of Record
KURZBAN KURZBAN
TETZELI & PRATT P.A.
131 Madeira Avenue
Coral Gables, FL 33134
(305) 444-0600
ira@kktplaw.com

MARK C. FLEMING
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000

JULY 2021

1

. CERTIFICATE OF SERVICE

I, Mark C. Fleming, a member of the bar of this Court, certify that on this
13th day of July, 2021, I caused all parties requiring service in this matter to be
served with a copy of the foregoing by third-party commercial carrier to the
addresses below:

Counsel for Respondent
ELIZABETH B. PRELOGAR
ACTING SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania A venue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Court-Awointed Amicus Curiae
in Suwort of the Judgment Below
TAYLOR ANN RAUSCH MEEHAN
CONSOVOY MCCARTHY PLLC

1600 Wilson Blvd., Suite 700
Arlington, VA 22209
(317) 408-3650
taylor@consovoymccarthy.com

